      DEPARTMENT OF HEALTH & HUMAN SERVICES                              Office of Inspector General

                                                                         Washington, D.C. 20201




April 8, 2010

TO:             Yvette Sanchez Fuentes
                Director, Office of Head Start
                Administration for Children and Families


FROM:           /Joseph E. Vengrin/
                Deputy Inspector General for Audit Services


SUBJECT:        Review of Head Start Health and Safety Standards at Tallatoona
                Community Action Partnership, Inc. (A-04-09-03527)


Attached, for your information, is an advance copy of our final report on Head Start health and
safety standards at Tallatoona Community Action Partnership, Inc. (the Grantee). We will issue
this report to the Grantee within 5 business days. The Administration for Children and Families,
Office of Head Start, requested this review.

If you have any questions or comments about this report, please do not hesitate to call me, or your
staff may contact Lori S. Pilcher, Assistant Inspector General for Grants, Internal Activities, and
Information Technology Audits, at (202) 619-1175 or through email at Lori.Pilcher@oig.hhs.gov
or Peter J. Barbera, Regional Inspector General for Audit Services, Region IV, at (404) 562-7750
or through email at Peter.Barbera@oig.hhs.gov. Please refer to report number A-04-09-03527.


Attachment
     DEPARTMENT OF HEALTH & HUMAN SERVICES                                OFFICE OF INSPECTOR GENERAL

                                                                          Office of Audit Services, Region IV
                                                                          61 Forsyth Street, SW, Suite 3T41
                                                                          Atlanta, GA 30303




April 15, 2010

Report Number: A-04-09-03527

Ms. Deborah Schmell
Executive Director
Tallatoona Community Action Partnership, Inc.
406 Martin Luther King Jr. Drive
P.O. Box 1480
Cartersville, GA 30120

Dear Ms. Schmell:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Head Start Health and Safety Standards at
Tallatoona Community Action Partnership, Inc. We will forward a copy of this report to the
HHS action official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or contact
John Drake, Audit Manager, at (404) 562-7755 or through email at John.Drake@oig.hhs.gov.
Please refer to report number A-04-09-03527 in all correspondence.

                                             Sincerely,



                                             /Peter J. Barbera/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Ms. Deborah Schmell


Direct Reply to HHS Action Official:

Ms. Carlis V. Williams
Regional Administrator
Administration for Children and Families
U.S. Department of Health & Human Services
61 Forsyth Street, Suite 4M60
Atlanta, GA 30303
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




    REVIEW OF HEAD START
    HEALTH AND SAFETY AT
   TALLATOONA COMMUNITY
   ACTION PARTNERSHIP, INC.




                    Daniel R. Levinson
                     Inspector General

                        April 2010
                      A-04-09-03527
                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                                  EXECUTIVE SUMMARY

BACKGROUND

Within the U.S. Department of Health & Human Services, the Administration for Children and
Families, Office of Head Start (OHS), administers the Head Start and Early Head Start programs.
We refer collectively to both programs as the Head Start program. In fiscal year (FY) 2009,
Congress appropriated $7.1 billion to fund the program’s regular operations. The American
Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act), provides an additional
$2.1 billion for the Head Start program during FYs 2009 and 2010.

Tallatoona Community Action Partnership, Inc. (the Grantee), provides Head Start services to
children aged 3 to 5 years at eight facilities located in six Georgia counties. For program year
April 1, 2008, through March 31, 2009, OHS awarded the Grantee approximately $4.3 million in
Federal Head Start funding to serve 637 children. On July 1, 2009, the Grantee also received
$318,605 in Recovery Act funding.

OBJECTIVE

Our objective was to determine whether the Grantee complied with applicable Federal and State
regulations on ensuring the health and safety of children in its care.

SUMMARY OF FINDINGS

The Grantee generally complied with Federal and State regulations on ensuring the health and
safety of children in its care. However, the Grantee did not fully comply with Federal and State
regulations in the following areas:

      The files on 21 of the Grantee’s 162 employees did not contain evidence of criminal
       record checks. The files on the 141 remaining employees contained the required
       documentation.

      Seven of the Grantee’s eight childcare facilities did not meet all Federal Head Start and
       State regulations on protecting children from unsafe materials and equipment.

These deficiencies occurred because the Grantee did not consistently follow its existing
procedures to ensure that it complied with Federal and State health and safety regulations. The
Grantee’s failure to consistently comply with these regulations jeopardized the health and safety
of children in its care.

RECOMMENDATIONS

We recommend that the Grantee consistently follow its existing procedures to ensure that:

      all employee criminal record checks are completed and employee files contain evidence
       of the checks and


                                                i
      all necessary repairs are completed and all unsafe conditions are addressed.

GRANTEE COMMENTS

In its comments on our draft report, the Grantee described its actions to address the deficiencies
that we identified and said that it would follow its policies and procedures to ensure the safety of
children. The Grantee’s comments are included in their entirety as Appendix B.




                                                 ii
                                                     TABLE OF CONTENTS

                                                                                                                                    Page

INTRODUCTION.......................................................................................................................1

          BACKGROUND ..............................................................................................................1
              Federal Head Start Program..................................................................................1
              Federal and State Regulations for Head Start Grantees........................................1
              Tallatoona Community Action Partnership, Inc. ..................................................2
              Office of Inspector General Audits.......................................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ............................................................2
               Objective ...............................................................................................................2
               Scope.....................................................................................................................2
               Methodology .........................................................................................................2

FINDINGS AND RECOMMENDATIONS .............................................................................3

          CRIMINAL RECORD CHECKS.....................................................................................3
               Federal and State Regulations...............................................................................3
               Grantee’s Compliance With Criminal Record Check Regulations ......................4

          MATERIAL AND EQUIPMENT SAFETY ....................................................................4
              Federal and State Regulations...............................................................................4
              Grantee’s Compliance With Material and Equipment Safety Regulations ..........5

          INCONSISTENTLY FOLLOWED PROCEDURES.......................................................6

          RECOMMENDATIONS..................................................................................................6

          GRANTEE COMMENTS ...............................................................................................6

          OFFICE OF INSPECTOR GENERAL RESPONSE .......................................................6

APPENDIXES

          A: LACK OF COMPLIANCE WITH MATERIAL AND EQUIPMENT
             SAFETY REGULATIONS

          B: GRANTEE COMMENTS




                                                                    iii
                                               INTRODUCTION

BACKGROUND

Federal Head Start Program

Title VI of the Omnibus Budget Reconciliation Act of 1981 established Head Start as a Federal
discretionary grant program. The major program objectives include promoting school readiness
and enhancing the social and cognitive development of low-income children by providing health,
educational, nutritional, and social services. In 1994, the Head Start program was expanded to
establish Early Head Start, which serves children from birth to 3 years of age. We refer
collectively to both programs as the Head Start program.

Within the U.S. Department of Health & Human Services, the Administration for Children and
Families (ACF), Office of Head Start (OHS), administers the Head Start program. In fiscal year
(FY) 2009, Congress appropriated $7.1 billion to fund Head Start’s regular operations.

The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
provides an additional $2.1 billion for the Head Start program during FYs 2009 and 2010. These
funds are intended for activities such as expanding enrollment, funding cost-of-living wage
increases for grantees, upgrading centers and classrooms, and bolstering training and technical
assistance.

Federal and State Regulations for Head Start Grantees

Pursuant to Federal Head Start regulations (45 CFR § 1304.53(a)(7)), grantees must provide for
the maintenance, repair, and safety of all Head Start facilities. The regulations also specify that
facilities used by Head Start grantees for regularly scheduled, center-based activities must
comply with State and local licensing regulations. Alternatively, if State and local licensing
standards are less stringent than the Head Start regulations or if no State licensing standards are
applicable, grantees must ensure that their facilities comply with the Head Start Program
Performance Standards related to health and safety (45 CFR § 1306.30(c)).

Pursuant to Georgia law and code (Official Code of Georgia Annotated §§ 20-1A-2 and
20-1A-4) and Georgia Rules and Regulations, chapter 591-1-1-.01, only childcare facilities that
charge a fee are required to be licensed. However, voluntarily licensed facilities must follow the
provisions of the State regulations, as enforced by Bright From the Start: Georgia Department of
Early Care and Learning. A grantee may have some Head Start facilities that are licensed and
other facilities that are not licensed. Of the eight Head Start facilities operated by Tallatoona
Community Action Partnership, Inc. (the Grantee), four were licensed. 1

Tallatoona Community Action Partnership, Inc.

The Grantee is a private, nonprofit community action agency, which provides assistance to low-
income individuals and families to help them acquire useful skills and knowledge, gain access to
1
    The Bartow, Gordon, and Polk (Cedartown and Rockmart) County facilities were not licensed.


                                                          1
new opportunities, and achieve economic self-sufficiency. The Grantee provides educational
and daycare services to children aged 3 to 5 years and their families through a variety of
programs at eight facilities in six Georgia counties. The Grantee has received Head Start funding
since 1967. For program year April 1, 2008, through March 31, 2009, OHS awarded
approximately $4.3 million in Federal Head Start funds to the Grantee to provide services to 637
children. On July 1, 2009, the Grantee also received $318,605 in Recovery Act funding.

Office of Inspector General Audits

This audit is one of a series of audits that address the health and safety of children who attend
Head Start programs. We are conducting these audits in response to the $2.1 billion in Recovery
Act funds appropriated for the Head Start program in FYs 2009 and 2010.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Grantee complied with applicable Federal and State
regulations on ensuring the health and safety of children in its care.

Scope

Our review covered the Grantee’s employee records as of June 2009 and facilities as of May
2009. To gain an understanding of the Grantee’s operations, we conducted a limited review of
internal controls as they related to our audit objective.

We performed our fieldwork in May and June 2009 at the Atlanta Regional OHS; the Georgia
Department of Early Care and Learning; the Grantee’s administrative office in Cartersville,
Georgia; and the Grantee’s eight Head Start facilities in surrounding communities.

Methodology

To accomplish our objective, we:

       selected the Grantee based on prior risk analyses and discussions with ACF officials,

       reviewed Federal and State laws and regulations related to Federal grant awards and the
        Head Start program,

       interviewed employees of the Atlanta Regional OHS,

       interviewed officials at the Georgia Department of Early Care and Learning,

       interviewed the Grantee’s management and other employees,




                                                 2
           reviewed the Grantee’s files on all 162 current Head Start employees as of June 2009, 2

           visited the Grantee’s eight Head Start facilities,

           reviewed the Grantee’s licenses and documentation of fire and water inspections, and

           discussed our preliminary findings with the Grantee’s management.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                 FINDINGS AND RECOMMENDATIONS

The Grantee generally complied with Federal and State regulations on ensuring the health and
safety of children in its care. However, the Grantee did not fully comply with Federal and State
regulations in the following areas:

           The files on 21 of the Grantee’s 162 employees did not contain evidence of criminal
            record checks. The files on the 141 remaining employees contained the required
            documentation.

           Seven of the Grantee’s eight childcare facilities did not meet all Federal Head Start and
            State regulations on protecting children from unsafe materials and equipment.

These deficiencies occurred because the Grantee did not consistently follow its existing
procedures to ensure that it complied with Federal and State health and safety regulations. The
Grantee’s failure to consistently comply with these regulations jeopardized the health and safety
of children in its care.

CRIMINAL RECORD CHECKS

Federal and State Regulations

Pursuant to § 648A(g) of the Head Start Act (42 U.S.C. § 9843a(g)), a Head Start grantee may
not hire an individual on a permanent or nonpermanent basis until it obtains (1) a State, tribal, or
Federal criminal record check covering all jurisdictions where the grantee provides Head Start
services to children; (2) a State, tribal, or Federal criminal record check as required by the law of
the jurisdiction where the grantee provides Head Start services; or (3) a criminal record check as
otherwise required by Federal law.



2
    The 162 employees were partially or fully funded by the Head Start grant award.


                                                            3
Georgia Rules and Regulations, chapter 591-1-1-.09, state that “The director and employees of a
center must submit to criminal records checks in connection with any application for a license
and before a person may become a director or an employee in a center. No person having an
unsatisfactory criminal records check determination may be a director or employee of a center.”

Grantee’s Compliance With Criminal Record Check Regulations

The files on 21 employees (10 teachers, 5 substitute teachers, and 6 individuals in
administrative/support positions) of the Grantee’s 162 employees did not contain evidence of
completed criminal record checks. We alerted the Grantee’s management to this condition, and
it attempted to locate the missing records. However, management was unable to do so.

The Grantee’s management said that it had obtained criminal record checks for all employees but
that the records had been misplaced. Management also said that it would obtain new record
checks on the 21 employees.

By not ensuring that all employees who supervised or had routine unsupervised contact with
children had cleared a criminal record check, the Grantee potentially jeopardized the safety of
children in its care.

MATERIAL AND EQUIPMENT SAFETY

Federal and State Regulations

Pursuant to Federal Head Start regulations (45 CFR § 1304.53(a)(7)), grantees must provide for
the maintenance, repair, and safety of all Head Start facilities, materials, and equipment. The
regulations (45 CFR § 1304.53(a)) require, among other things, that:

      playground equipment and surfaces be maintained to minimize the possibility of injury to
       children;

      electrical outlets accessible to children prevent shock through the use of child-resistant
       covers, child-protection outlets, or safety plugs; and

      indoor and outdoor premises be kept free from hazardous conditions.

Pursuant to 45 CFR § 1306.30(c), grantees also must ensure that Head Start facilities comply
with any State and local licensing requirements. If these licensing standards are less
comprehensive or stringent than the Head Start regulations or if no State or local licensing
standards are applicable (as in the case of nonlicensed facilities), grantees must ensure that their
facilities comply with the Head Start Program Performance Standards related to health and safety
found in 45 CFR § 1304.53(a).

Georgia Rules and Regulations, chapter 591-1-1, require that:

          centers be kept clean, free of debris, and in good repair;


                                                  4
          unused electrical outlets have protective caps; and

          playgrounds be kept clean and free from litter and hazards.

Grantee’s Compliance With Material and Equipment Safety Regulations

The Grantee’s childcare facilities did not meet all Federal Head Start and State health and safety
regulations on protecting children from unsafe materials and equipment. We noted the following
deficiencies at seven of the Grantee’s eight facilities and reported the deficiencies to the facility
managers on duty during our visits. Grantee officials subsequently advised us that they were
taking actions to correct these deficiencies.

Bartow County (not State licensed, visited May 12, 2009)

      Electrical outlets in three classrooms and the girls’ bathroom lacked protective caps
       (Appendix A, Photograph 1).

Gordon County (not State licensed, visited May 12, 2009)

      Electrical outlets in a classroom and the library lacked protective caps.

Polk County (Rockmart) (not State licensed, visited May 12, 2009)

      An electrical outlet in a classroom lacked a protective cap.

Haralson County (State licensed, visited May 14, 2009)

      A building accessible to children had an exterior door panel that did not extend to the
       ground, creating a 10- to 12-inch gap. Children could crawl under the door panel and
       possibly hurt themselves (Appendix A, Photograph 2).

Paulding County (Hiram YMCA) (State licensed, visited May 14, 2009)

      Electrical outlets in three classrooms lacked protective caps (Appendix A, Photograph 3).

Paulding County (Dallas) (State licensed, visited May 14, 2009)

      Exposed tree roots on the playground presented a tripping hazard (Appendix A,
       Photograph 4).

Floyd County (State licensed, visited May 15, 2009)

      Electrical outlets in three classrooms lacked protective caps.

By not ensuring that all facilities were kept free from unsafe materials and equipment, the
Grantee jeopardized the safety of children in its care.


                                                  5
INCONSISTENTLY FOLLOWED PROCEDURES

These deficiencies occurred because the Grantee did not consistently follow its existing
procedures to ensure that it complied with Federal and State health and safety regulations.

RECOMMENDATIONS

We recommend that the Grantee consistently follow its existing procedures to ensure that:

      all employee criminal record checks are completed and employee files contain evidence
       of the checks and

      all necessary repairs are completed and all unsafe conditions are addressed.

GRANTEE COMMENTS

In its comments on our draft report, the Grantee described its actions to address the deficiencies
that we identified and said that it would follow its policies and procedures to ensure the safety of
children. The Grantee also said that only two of its eight facilities were licensed, rather than the
four indicated in our report. The Grantee added that the Paulding County (Dallas) facility had
three playgrounds and that the exposed tree roots that we cited were on a playground that Head
Start children did not use.

The Grantee’s comments are included in their entirety as Appendix B.

OFFICE OF INSPECTOR GENERAL RESPONSE

After receiving the Grantee’s comments, we confirmed with officials at the Georgia Department
of Early Care and Learning that the Grantee technically had four licensed facilities. Head Start
shared the two facilities in question with other non-Head Start childcare programs that were
licensed. According to the Georgia Department of Early Care and Learning, these licenses
covered all space in the facilities, including space used by the Head Start program.

We also confirmed that the Dallas facility had three playgrounds and that Head Start children did
not use the playground cited in our draft report. However, we observed similar exposed tree
roots on the playground that the Head Start director said Head Start children used. Accordingly,
we replaced the photograph of the exposed tree roots (Appendix A, Photograph 4).




                                                  6
APPENDIXES
                                                                          Page 1 of 2

APPENDIX A: LACK OF COMPLIANCE WITH MATERIAL AND EQUIPMENT
                     SAFETY REGULATIONS




     Photograph 1 – Taken at the Bartow County facility on 5/12/09
     showing an electrical outlet without a protective cap.




  Photograph 2 – Taken at the Haralson County facility on 5/14/09 showing an
  exterior door panel that did not extend to the ground, allowing children to
  crawl under the door.
                                                                   Page 2 of 2




Photograph 3 – Taken at one Paulding County facility (Hiram
YMCA) on 5/14/09 showing multiple electrical outlets without
protective caps.




Photograph 4 – Taken at one Paulding County facility (Dallas) on
2/19/10 showing exposed tree roots on the playground, which
presented a tripping hazard.
                                                                                                               Page I of3

                     APPENDIX B: GRANTEE COMM EN TS



    I.
~A;;;iOn.
                                                                                       Deborah L Sclune!l
                                                                                        £"'~"'l\'" />t,..'C_
                                                                                             P.O. Dox 1480
   PARTNERSHIP                                                                 Ciutasville, Georgia 30 lID
   ~"9~. ChotIgIng ~                                                                        (770) 382-S388
 Tallatoona Community                                                                   Fax (770) 3117-4302
                                                                               debor.Ihs@taIlalOOllaCllp.Org
 Action Partnership. Inc.                                                           WWW.taJIaIOOMCap.org



February 12,20 10

Mr. John T. Drake. Audit Manager
Office ofl nspeclor General
Office of Audit Services. Region IV
6 1 Forsyth Street, SW, Suite 3T4!
Atlanta, GA 30303

RE: Repon Number: A-04-09-03527

Dear Mr. Drake,

This letter is in response to report nu mber: A-04-09-03527, draft report entitled Review of Head
Start flea"" alld Saf ety Standards at Tallaroofla Comm/miry Actioll Partllership. Inc. Please see
the following response andlO!" action taken to correct findi ngs.

Page 1: 

Federal and Stale Hegulaliolls for Head Slart Gran(us 

Indicates that four o f our eight facilities arc licensed, we o nly have two centers that are licensed, 

Floyd County and Haralson County. 


Page 4 

G rantee's C ompliance With Criminal Record C heck Rrg ulations 

Nineteen o rthe twenty one criminal record checks were located or completed shonly after the 

aud it was conducted and were submitted to the Office of Inspector General/Office of Audit 

Services prior to the o utcome of the report. One employee was a substitute who had not been in 

the classroom for approximately two months prior to the aud it. This employee has since been 

termi nated. The remaining e mployee has also been terminated. 


At the ti me of the audit the agency was in the process of securing a Human Resource Manager. 

The agency has secured a well qualified Hu man Resource Manager. 


We have changed our criminal record check process to allow the criminal record check to be 

conducted at one central location; versus multiple county locations as in the past and we utilize 

an electronic fi ngerprinting process. All criminal record check requests arc processed by the 

Human Resource Manage r at our Management O ffi ce and arc on file in the 1'lu man Resource 

office. These procedu re modifi cations will ensure crimi nal record checks are completed and on 

file prior to an employee reponing for the position. 

                                                                                                       Page2of3




Page 5 

GrA n lee's Compliance With Mate ria l And Equipment Safety Regulations 


Electrical Outlets 

All electrical outlets arc covered with protective caps at al l of our facilities when the outlets are 

not in use. There is a monitori ng checkl ist that is completed weekly at each location to ensure all 

outlets are covered. 


Exterior Door Panel Gap 

The exterior door panel al our Haralson County cenler has been repa ired. A photograph is 

included of the repair. 


E.posed tree roots/Paulding County (Dallas) 

The playground that was cited for exposed tree rools is not used by our Head Slart children. We 

lease the facility and the facility also contains a child care center not operated by Tallatoona, 

there are a total orthree playgrounds on the premises. The child care center utilizes two oflhe 

playgrounds while our Head Start program only utilizes one, we do not share playgrounds with 

the chi ld care center. 


We wi ll follow agency policies and procedures to ensure Ihe safety of OUT children. Please feel 

free 10 contact me if you have any questi ons. 


Sincerel y. 




Deborah L. Schme ll 

Execulive Director 

Tallaloona CAP. Inc. 

(678)12 1.939 1 Ext. 104 

debb jeS@lallal90nacap.org 





                COUNTIES: Bartow. Cobb, 00ug.Ias. Floyd, Gordon. Hanlson,   Pauldin& &   Polk 

                                     Equal Opportunil)' Employ\:r 

Page 3 of 3
